                     U.S. Department of Agriculture

                        Office of Inspector General
                               Great Plains Region




            Audit Report

           Farm Service Agency
Inspection of Temporary Domestic Storage
    Sites for Foreign Food Assistance




                          Report No. 03099-198-KC
                                      August 2008
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




DATE:         August 22, 2008

REPLY TO
ATTN OF:      03099-198-KC

TO:           Teresa C. Lasseter
              Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff

FROM:         Robert W. Young             /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Inspection of Temporary Domestic Storage Sites for Foreign Food
              Assistance


This report presents the results of our audit of the Farm Service Agency’s administration
of its port examination process. Your response to the official draft report, dated
August 14, 2008, is included as exhibit A with excerpts from your response and the
Office of the Inspector General’s position incorporated into relevant sections of the
report. Based on the information in your written response, we accept management
decisions on the report’s four recommendations. Please follow your internal agency
procedures in forwarding final action correspondence to the Office of the Chief Financial
Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff
during this audit.
Executive Summary
Farm Service Agency, Inspection of Temporary Domestic Storage Sites for
Foreign Food Assistance (Audit Report No. 03099-198-KC)

Results in Brief                        Each year, the Department of Agriculture (USDA) ships large
                                        quantities of food overseas as part of a number of food aid programs.
                                        In fiscal year 2007, for instance, USDA exported 2.46 million metric
                                        tons of food at a cost of over $1 billion. Although the Commodity
                                        Credit Corporation (CCC) administers these programs, it has no
                                        operating personnel. CCC relies on the Farm Service Agency (FSA) to
                                        perform the day-to-day tasks associated with these functions. FSA’s
                                        Kansas City Commodity Office (KCCO) handles the sale, donation,
                                        and transfer of CCC-owned commodities and also makes arrangements
                                        for their export to foreign countries. In an effort to improve storage
                                        conditions when food is delivered to ports but waiting to be shipped,
                                        FSA began a process in 1999 to examine ports and transloading
                                        facilities 1 to help ensure that USDA-purchased commodities are
                                        wholesome when shipped. In 2004, FSA revised the process to
                                        increase the frequency of examinations from once every 5 years to
                                        annual examinations, with more frequent examinations for facilities
                                        handling large quantities of food aid. As of April 11, 2008, CCC had
                                        approved 45 ports and transloading facilities for exporting USDA
                                        commodities to foreign countries. The Office of Inspector General
                                        initiated this audit to assess FSA’s administration of its port
                                        examination process. Our review covered 179 port examinations
                                        performed between July 1, 2004, and March 16, 2006, and we visited
                                        three port facilities in two locations.

                                        FSA/CCC notified facilities of their approval to store and handle
                                        USDA-purchased commodities by including them on a list of approved
                                        facilities on FSA’s website. We found, however, that FSA does not
                                        have proper regulatory and operational procedures in place to remove
                                        facilities that fail examinations from the list or discontinue food
                                        shipments to them when unsanitary or unhealthy conditions are
                                        identified during the examination process. Therefore, listed facilities
                                        that repeatedly fail examinations cannot be denied food shipments for
                                        export. In addition, FSA’s overall procedures were inadequate to
                                        ensure that examiners consistently evaluated examination elements (as
                                        “pass” or “fail”) and that any deficiencies noted at port and
                                        transloading facilities were verified as corrected.




1
    Transloading facilities provide temporary storage for commodities as they are moved from railways to more permanent port facilities.

USDA/OIG-A/03099-198-KC                                                                                                                    Page i
                                      Informal Approval Process Lacked Enforcement Authority

                                      When FSA developed its examination procedures, it approached the
                                      process informally and failed to incorporate meaningful enforcement
                                      capabilities. Specifically, FSA has no legal or regulatory process for
                                      discontinuing its relationships with ports and transloading facilities that
                                      repeatedly violate its standards. Without regulations or such
                                      procedures, FSA’s examination process lacks consequences for repeat
                                      offenders. Rather than promulgate regulations for approving and
                                      removing a port from its list of approved ports, FSA relied on its
                                      procurement regulations 2 to conduct the examinations since it had to
                                      determine whether a port or transloading facility was able to perform.
                                      However, there is no binding contractual agreement between FSA and
                                      the port or the transloading facility.

                                      Since FSA implemented the examination process, some ports and
                                      transloading facilities have repeatedly failed to maintain sanitary
                                      conditions for storing food commodities. For example, port warehouse
                                      examiners failed one facility five times over five months for a rat
                                      infestation and another facility seven times over four months for an
                                      insect and rodent infestation.

                                      KCCO officials realized the limitations of the informal approach when
                                      they compiled thorough documentation of one port’s continued
                                      deficiencies in storing USDA foreign food aid and presented the
                                      documentation to the Office of the General Counsel (OGC) in an effort
                                      to remove the port from CCC’s approved list and suspend further food
                                      shipments to it. In denying KCCO’s request, OGC said that since
                                      KCCO did not establish by regulation the policies and procedures for
                                      approving a port or transloading facility, it did not have the regulatory
                                      authority to remove the port from the approved list, even if it did have
                                      complete documentation of the port’s failed examinations. OGC also
                                      stated that in order for KCCO to remove a port from the approved list,
                                      there must be procedures for the port to appeal KCCO’s determination.

                                      Until FSA develops formal internal operating procedures for approving
                                      ports and transloading facilities and can terminate its relationship with
                                      facilities that consistently fail examinations, it will continue to send
                                      food aid commodities to these facilities. FSA also risks sending
                                      contaminated food commodities to foreign countries and damaging the
                                      United States’ reputation in the global community.



2
  7 Code of Federal Regulations (C.F.R.) § 1496.5 (d) (3) and (4), January 1, 2005, provides, in part, that the adequacy of the port to receive,
accumulate, handle, store, and protect the cargo will be considered prior to final selection. Factors to be considered include cleanliness, freedom
from insects and rodents, etc.

USDA/OIG-A/03099-198-KC                                                                                                                 Page ii
                   Port Facilities Were Not Consistently Examined

                   Each port examination consists of a warehouse examiner review of the
                   requirements applicable to the port storage or transloading facility.
                   Each element of the review (such as the absence of pests and insects
                   from a warehouse) is listed on an examination checklist and is to be
                   graded by the examiner as “pass,” “fail,” or “N/A” (not applicable).
                   For example, examiners must determine if commodities are clean and
                   protected from bird droppings, dust, filth, and stains, and if warehouses
                   are repeatedly inspected for rodent activity. Examiners performed
                   179 examinations at 43 approved port and transloading facilities
                   between July 1, 2004, and March 16, 2006. We reviewed all
                   179 examinations and found, however, that examiners did not
                   consistently assess warehouse conditions for the corresponding
                   elements on the checklists. Specifically, we found that examination
                   reports showed that 5 of 43 port facilities lacked pest control programs,
                   yet 3 of these port facilities nevertheless passed their examinations.
                   Two port facilities stored hazardous materials in warehouses available
                   to store food, yet one of these facilities also passed its examination. In
                   addition, warehouse examiners observed birds or traces of birds at two
                   different port facilities. Of 21 total examinations conducted at both
                   ports where birds or bird traces were observed, the warehouse
                   examiners failed 16 but passed 5. Because all examiners observed bird
                   traces, but gave both failing and passing marks, we considered the
                   examinations to be inconsistent.

                   These inconsistencies occurred because FSA’s examination procedures
                   did not contain comprehensive guidance, including precise definitions
                   or terminology defining pests or instructions for weighting the
                   significance of different violations. Without such guidance, warehouse
                   examiners were left to arrive at their own conclusions about the
                   seriousness of any given violation.

                   We concluded that FSA should revise its examination procedures for
                   ports and transloading facilities. The revised procedures should provide
                   necessary criteria to determine if an individual element was not being
                   met or if the facility should be considered as failing the examination.
                   Until it makes these revisions, FSA cannot be certain that the port
                   facilities utilized when shipping USDA-purchased commodities
                   provide adequate, clean, and safe conditions.

                   Corrective Action On Examination Failures Not Ensured

                   Failure on any element of the port examination is to result in the
                   examiner’s issuance of a Form WA-125, “Memorandum of

USDA/OIG-A/03099-198-KC                                                              Page iii
                                    Adjustments (Form WA-125)” 3 requiring corrective action and
                                    reporting of that corrective action to KCCO. While warehouse
                                    examiners performed 179 examinations, they recorded 51 failures at
                                    port and transloading facilities between July 1, 2004, and
                                    March 16, 2006. For 20 of the 51 failures, FSA did not issue the
                                    required Forms WA-125 to inform facilities of the observed
                                    deficiencies. For 20 additional failures, FSA did issue the Forms
                                    WA-125, but did not follow up to determine if facilities had taken
                                    adequate corrective action. FSA lacked specific internal written
                                    procedures for following up on issued Forms WA-125. The agency
                                    failed to adequately follow up and confirm whether the facilities had
                                    corrected the deficiencies and did not maintain written documentation
                                    of all relevant communication with responsible parties at the ports.
                                    Also, officials at KCCO were unclear about their respective duties and
                                    responsibilities for following up on deficiencies identified during
                                    examinations. Unless FSA maintains written documentation of each
                                    port and transloading facility’s response to a failed examination and
                                    FSA’s subsequent actions to confirm the deficiencies have been
                                    corrected, the agency will not have a clear and comprehensive record
                                    of each facility’s performance, nor can FSA be certain that observed
                                    deficiencies have been corrected.

                                    In response to our audit, KCCO officials developed written procedures
                                    detailing the division of responsibilities within KCCO for followup on
                                    issued Forms WA-125. However, we concluded that the new
                                    procedures did not address FSA’s ability to monitor the corrective
                                    actions taken or contemplated, or KCCO’s ability to maintain
                                    documentation of its followup activities. In subsequent discussions of
                                    the audit results, the Office of the General Counsel (OGC) and FSA
                                    disclosed they are working jointly to address conditions noted in the
                                    audit, and that proposed solutions may not be the same as the audit
                                    recommendations. Therefore, FSA needs to consult with OGC in
                                    developing corrective actions and responding to the audit
                                    recommendations. OIG may accept alternative actions put forth by
                                    FSA (in consultation with OGC), so long as such alternative actions
                                    would correct the causes of the conditions noted in the audit.

Recommendations
In Brief                            FSA should develop and publish written standards of approval and
                                    formal internal operating procedures for approving and disapproving
                                    ports and transloading facilities. These procedures should include an
                                    appeal process for facilities that are not approved. We also recommend
                                    that FSA strengthen its existing examination procedures for examining
                                    port facilities as well as provide comprehensive procedural guidance
3
 Export Operations Division (EOD) Notice EOD-143, July 1, 2004, “Notice to the Trade – Revised U.S. Port Inspection Procedures,” refers to
Form WA-125, “Memorandum of Adjustments,” as a Corrective Action Report.

USDA/OIG-A/03099-198-KC                                                                                                        Page iv
                   for examiners, including specific parameters and/or criteria for
                   determining pass/failure for observed conditions and precise
                   definitions or terminology for each element evaluated. In addition, we
                   recommend FSA strengthen procedures to ensure KCCO documents
                   and verifies that acceptable corrective actions are reported and/or taken
                   by the facilities.

Agency Response    FSA generally agreed with the report’s four recommendations. FSA
                   plans to create a license under the authority of the United States
                   Warehouse Act (USWA) for ports and transloading facilities and add a
                   requirement during the procurement process that only USWA licensed
                   facilities may be used in handling government food assistance
                   commodities. This action will allow FSA to use policies and
                   procedures that are currently in place for its licensing programs
                   including current regulations, written standards for approval and due
                   process for approving and disapproving facilities under the USWA,
                   and procedures to track and follow-up on adverse examination reports
                   and to suspend and revoke licenses as appropriate. FSA will also revise
                   its examination procedures and forms to provide comprehensive
                   procedural guidance for examiners.

OIG Position       We accept the management decision on each of the report’s four
                   recommendations.




USDA/OIG-A/03099-198-KC                                                              Page v
Abbreviations Used in This Report


CCC                 Commodity Credit Corporation
C.F.R.              Code of Federal Regulations
EOD                 Export Operations Division
FFP                 Food for Progress
FSA                 Farm Service Agency
FY                  Fiscal Year
KCCO                Kansas City Commodity Office
OGC                 Office of the General Counsel
OIG                 Office of Inspector General
P.L.                Public Law
PVO                 Private Voluntary Organization
U.S. AID            U.S. Agency for International Development
USDA                Department of Agriculture
USWA                United States Warehouse Act
VLO                 Vessel Loading Observation
WLED                Warehouse License and Examination Division




USDA/OIG-A/03099-198-KC                                          Page vi
Table of Contents

Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................ vi

Background and Objective .......................................................................................................... 1

Findings and Recommendations.................................................................................................. 3

    Section 1 - FSA’s Controls over the Port Examination Process Need Improvement ........ 3

        Finding 1             Informal Process to Approve Facilities for Foreign Food Aid
                              Shipments Lacked Enforcement Authority ................................................... 5
                                  Recommendation 1 ................................................................................ 8
                                  Recommendation 2 ................................................................................ 9
        Finding 2             FSA Examiners Did Not Consistently Evaluate Port Facility
                              Conditions ..................................................................................................... 9
                                  Recommendation 3 .............................................................................. 13
        Finding 3             Corrective Action on Examination Failures Not Ensured........................... 13
                                  Recommendation 4 .............................................................................. 15

Scope and Methodology.............................................................................................................. 17

Exhibit A – FSA Response ......................................................................................................... 19

Glossary of Terms ....................................................................................................................... 21




USDA/OIG-A/03099-198-KC                                                                                                             Page vii
Background and Objective
Background                       The Department of Agriculture (USDA) sponsors the shipment of food
                                 commodities to foreign nations through a variety of aid programs. 4
                                 When those food commodities reach foreign shores, they are intended to
                                 promote a number of goals, including combating hunger and
                                 malnutrition, promoting broad-based equitable and sustainable
                                 agricultural development, expanding international trade, developing and
                                 expanding export markets for United States agricultural food
                                 commodities, and encouraging the development of private enterprise and
                                 democracy. In fiscal year (FY) 2007, in support of a broad range of such
                                 goals, USDA exported approximately 2.46 million metric tons of food
                                 commodities at a cost of over $1 billion.

                                 A food aid export program of this size and complexity relies on the
                                 contributions of the Commodity Credit Corporation (CCC), a
                                 Government-owned and operated entity that has been the Federal
                                 Government’s primary financing arm for an array of domestic and
                                 international agricultural programs. CCC was created to stabilize,
                                 support, and protect farm income and prices. However, because CCC
                                 has no operating personnel, it relies on the personnel of the Farm Service
                                 Agency (FSA) to perform the day-to-day tasks associated with these
                                 functions. FSA’s Kansas City Commodity Office (KCCO) purchases
                                 food commodities, arranges for their movement to ports, and ensures
                                 that they are delivered undamaged to the shipping companies that will
                                 transport them overseas for USDA’s food aid programs.

                                 KCCO also manages a port approval and examination process intended
                                 to ensure that, until such food commodities are loaded on ships and
                                 exported to foreign nations, they are stored in adequate, clean, and
                                 secure facilities. The primary intent of the port examination process is to
                                 protect the commodities from damage or contamination resulting from,
                                 among other things, infestation, mold, dirt, and trash. Transloading
                                 facilities, 5 as well as storage, facilities must be approved by KCCO’s
                                 Export Operations Division (EOD).

                                 KCCO’s Warehouse License and Examination Division (WLED)
                                 employs warehouse examiners who perform the port and transloading
                                 facility examinations. EOD purchases and arranges deliveries of
                                 agricultural commodities to foreign countries. EOD also arranges for
                                 survey of cargo at destination ports and delivery locations for a number


4
  Aid programs include the Food for Peace Program (Public Law (P.L.) 480, Titles II and III); Food for Progress Program (FFP) (P.L. 480
Title I); and Section 416(b) of the Agricultural Act of 1949.
5
  Transloading facilities provide temporary storage for commodities as they are moved from railways to more permanent port facilities.

USDA/OIG-A/03099-198-KC                                                                                                      Page 1
                                    of non-governmental organizations. EOD’s surveyors determine how
                                    much damaged food will be billed to the ocean carrier.

                                    Based on CCC’s authority, FSA’s EOD maintains a list of port and
                                    transloading facilities that have applied for and received FSA’s approval
                                    to store and handle food commodities. 6 CCC does not require a written
                                    agreement or contract with these facilities. Instead, CCC only requires
                                    port and transloading facilities interested in participating in CCC’s food
                                    aid export programs to submit an application. Participation in the
                                    programs is voluntary; however, CCC food commodities are to be
                                    exported only through approved facilities for this purpose.

                                    If a port or transloading facility wishes to be placed on FSA’s list of
                                    approved facilities, it must apply for and then pass an initial examination
                                    performed by FSA’s WLED warehouse examiners. After the initial
                                    examination, approved port and transloading facilities handling USDA
                                    commodities are subject to at least an annual examination assessing the
                                    terminal infrastructure, commodity storage conditions, pest control and
                                    security; these examinations may be more frequent if the facility handles
                                    a large quantity of food aid.

                                    In conducting these examinations, warehouse examiners complete one of
                                    two checklists—one for ports and another for transloading facilities. If a
                                    facility functions both as a port and as a transloading facility, then the
                                    examiner uses both checklists. Each checklist is composed of many
                                    different elements that are graded on a pass/fail basis. For example,
                                    examiners must determine if commodities are clean and protected from
                                    bird droppings, dust, filth, and stains, and if warehouses are repeatedly
                                    inspected for rodent activity. A failure on an element will result in
                                    FSA’s issuance of Form WA-125, “Memorandum of Adjustments,”
                                    which describes the conditions that must be corrected and generally
                                    requires that, within 15 days, the port or operator take corrective actions
                                    to address the failed element(s) and report such corrective action to
                                    KCCO on the reverse side of the form.

Objective                           The objective of our review was to assess FSA’s administration of its
                                    port examination process.




6
  Effective Sept. 1, 1999, CCC implemented a port approval and examination procedure for all port facilities storing P.L. 480, Titles II and III,
FFP, and Section 416(b) foreign food assistance program commodities (EOD-51, “Notice to the Trade – Port Approval and Inspections,”
Aug. 12, 1999). This procedure was later superseded by EOD-143, “Notice to the Trade – Revised U.S. Port Inspection Procedures,”
July 1, 2004.

USDA/OIG-A/03099-198-KC                                                                                                               Page 2
Findings and Recommendations
Section 1 - FSA’s Controls over the Port Examination Process Need Improvement

                                    In April 1998, a representative from U.S. Agency for International
                                    Development (U.S. AID) and a private voluntary organization (PVO)
                                    representative paid an on-site visit to a port storing USDA-purchased
                                    commodities. During their visit, they observed rodent and insect
                                    infestations in the storage area as well as birds flying through the storage
                                    area. Their observations and concerns about the sanitary conditions in
                                    which food aid was being stored and handled at the port prompted
                                    officials of KCCO and FSA’s procurement division to develop the
                                    examination procedures adopted in 1999.

                                    However, FSA failed to incorporate meaningful enforcement capabilities
                                    when it developed these examination procedures. Specifically, FSA has
                                    no process for discontinuing its relationships with ports and transloading
                                    facilities that repeatedly violate its standards. Rather than promulgate
                                    regulations for approving and removing a port from its list of approved
                                    ports, FSA relied on its procurement regulations 7 to conduct
                                    examinations of the port or transloading facility since it had to determine
                                    whether a port or transloading facility was able to perform. Using the
                                    results of these examinations, FSA then developed a list of approved
                                    ports or transloading facilities.

                                    At the time of our audit, KCCO had documented problems with an
                                    approved port. KCCO asked Office of the General Counsel (OGC) if it
                                    could stop sending food aid shipments to the port. According to OGC,
                                    since KCCO had not promulgated regulations establishing the basis for
                                    approval of a port or transloading facility, it had no regulatory authority
                                    to terminate its relationship with a port despite complete documentation
                                    of its failures. OGC also stated that before KCCO can terminate its
                                    relationship with a port, that port must be granted its due process to
                                    appeal KCCO’s determination.

                                    We also identified two other problems compromising the effectiveness
                                    of FSA’s port and transloading facility examinations:

                                       •     FSA warehouse examiners did not always examine port facilities
                                             consistently, because the examination checklist procedures did not
                                             provide necessary criteria to determine if an individual element
                                             was not being met, or if the facility should be considered as failing

7
 7 C.F.R. § 1496.5 (d) (3) and (4), January 1, 2005, provides, in part, that the adequacy of the port to receive, accumulate, handle, store, and
protect the cargo will be considered prior to final selection. Factors to be considered include cleanliness, freedom from insects and rodents, etc.

USDA/OIG-A/03099-198-KC                                                                                                                 Page 3
                                       the examination. We noted that inspectors were inconsistent in
                                       examining or evaluating conditions at 9 of 43 approved port and
                                       transloading facilities.

                                  •    FSA did not always verify that port and transloading facilities
                                       implemented corrective action to remedy problems noted by the
                                       warehouse examiners during the examinations. Warehouse
                                       examiners performed reviews at 43 port and transloading facilities
                                       which resulted in the completion of 179 examination checklists. Of
                                       these, FSA warehouse examiners determined 51 failures between
                                       July 1, 2004, and March 16, 2006. We found that for 20 of the
                                       51 failures, FSA did not issue the required Forms WA-125 8 to
                                       inform facilities of the observed deficiencies because the
                                       examiners had issued the Forms WA-125 to the port for the same
                                       issues in prior examinations, and because EOD determined that
                                       examiners did not need to issue the form to facilities not storing
                                       USDA food at the time of the examination failure. For 20
                                       additional failures, FSA did issue the Forms WA-125, but did not
                                       follow up to determine if facilities had taken adequate corrective
                                       action. The followup did not occur, because FSA lacked specific
                                       internal written procedures at the time of our fieldwork for
                                       following up on forms WA-125 issued by examiners. Although
                                       FSA issued new written procedures in response to our audit, we
                                       determined they did not require FSA to maintain documentation of
                                       actions reported by the facility in response to Form WA-125 or
                                       FSA’s measures to follow up on the facility’s reported actions.

                               FSA cannot be assured that food is not damaged or contaminated before
                               it is shipped unless (1) the agency develops a process for approving
                               parties wishing to store and handle USDA-purchased food aid
                               commodities; (2) the agency develops and publishes regulations and
                               procedures for terminating its relationship with those facilities that
                               repeatedly violate FSA’s standards; (3) examiners consistently apply the
                               elements of port examinations; and (4) examiners consistently follow up
                               with port facilities that fail examinations to ensure observed deficiencies
                               are corrected. FSA needs to consult with OGC in responding to or
                               developing corrective actions to address these conditions.




8
  EOD-143, July 1, 2004, “Notice to the Trade – Revised U.S. Port Inspection Procedures,” refers to Form WA-125, “Memorandum of
Adjustments,” as a Corrective Action Report.

USDA/OIG-A/03099-198-KC                                                                                               Page 4
Finding 1                           Informal Process to Approve Facilities for Foreign Food Aid
                                    Shipments Lacked Enforcement Authority

                                    On July 1, 2004, FSA issued a notice revising its former port
                                    examination procedures. 9 The notice required that all cargo be moved
                                    through facilities approved by EOD. According to the notice, all port
                                    and transloading operations handling food must be subject to an annual
                                    examination in order to become an approved facility. However, we
                                    found that when FSA developed its examination procedures, it failed to
                                    incorporate meaningful enforcement capabilities. Specifically, FSA has
                                    no process for legally discontinuing its relationships with ports and
                                    transloading facilities that repeatedly violate its standards. Rather than
                                    promulgate regulations for this examination program, FSA believed that
                                    its procurement regulations 10 provided adequate regulatory authority for
                                    the examinations. As a result, USDA-purchased food has been
                                    continually delivered to facilities that have failed multiple examinations.
                                    In addition, without the authority to stop delivering food to these
                                    facilities, FSA risks sending contaminated food to foreign countries and
                                    damaging the United States’ reputation in the global community.

                                    Because FSA approached its examinations of ports and transloading
                                    facilities as an informal process, it did not establish any definitive
                                    criteria or standards to which port storage facilities need to adhere for
                                    initial or continued approval. However, agency management is
                                    responsible for maintaining the quality of program performance. In
                                    particular, they are responsible for “mitigating adverse aspects of agency
                                    operations” and “assuring that programs are managed with integrity.” 11

                                    KCCO and FSA procurement division officials were prompted to
                                    develop examination procedures for ports and transloading facilities in
                                    1999 after representatives from U.S. AID and a PVO shared their
                                    observations from an on-site visit to a port storing USDA-purchased
                                    commodities. While visiting the port, they observed rodent and insect
                                    infestations in the storage area as well as birds flying through the storage
                                    area. In response, FSA established a port approval process and began
                                    requiring examinations of approved facilities every five years.

                                    If the owners or managers of a port or transloading facility want the
                                    facility to be approved to handle and/or store USDA donated
                                    commodities for foreign food aid programs, the requesting party must

9
  EOD-143, July 1, 2004, “Notice to the Trade, Revised U.S. Port Inspection Procedures” superseded EOD-51, August 12, 1999, “Notice to the
Trade – Port Approval and Inspection.”
10
   7 C.F.R. § 1496.5 (d) (3) and (4), January 1, 2005, provides, in part, that the adequacy of the port to receive, accumulate, handle, store, and
protect the cargo will be considered prior to final selection. Factors to be considered include cleanliness, freedom from insects and rodents, etc.
11
   Department Manual 1110-002, November 29, 2002, “USDA Management Control Manual.”

USDA/OIG-A/03099-198-KC                                                                                                                 Page 5
                  submit an application to FSA. The facility must then pass an initial
                  examination performed by FSA's WLED examiners. The requesting
                  party does not have to sign an agreement or contract with FSA in order
                  to have a facility approved. FSA notifies the requesting party of the
                  facility’s approval by including it in a list of approved facilities on FSA's
                  Internet web site. Some ports applied, but were not approved and were
                  not included in the approved facilities list. An OGC representative
                  informed us during the review that the approval procedure could be
                  challenged, because FSA does not publish a standard of operations, nor
                  does it offer an appeal procedure if owners and managers disagree with
                  the agency’s evaluation of their facility.

                  Examiners evaluate approved ports and transloading facilities using
                  checklists outlining a number of elements necessary for the clean and
                  secure storage of food commodities. For example, the checklists address
                  the facilities’ efforts to control the presence of birds, rodents, and
                  insects. Based on their observations, examiners determine whether
                  facilities passed or failed each element.

                  After FSA initiated the examination process, the same port visited by the
                  U.S. AID and PVO representatives continued to have difficulty
                  maintaining sanitary conditions. In 2004, KCCO responded by issuing a
                  memo to WLED intended to further strengthen the examinations. In part,
                  the memo called for annual examinations of facilities. Because FSA
                  continued to handle the problem informally, it had no authority per OGC
                  to rescind its approval of this port, or any other port or transloading
                  facility that had repeatedly failed examination elements.

                  KCCO officials realized the limitations of the informal approach when
                  they compiled thorough documentation of one port’s continued
                  deficiencies in storing USDA foreign food aid and presented the
                  documentation to OGC in an effort to remove the port from CCC’s
                  approval list and suspend further food shipments to it. OGC said KCCO
                  did not have the regulatory authority to remove the port, even if they did
                  have complete documentation of its failed examinations.

                  On one occasion, KCCO temporarily stopped sending food aid
                  shipments to a port that had repeatedly failed to correct conditions cited
                  on Form WA-125. The port eventually took adequate corrective action,
                  and when it did, KCCO resumed sending food aid shipments to the port.
                  An OGC representative told us that KCCO could avoid using a port
                  once, but it could not make this a regular practice. In the OGC
                  representative’s opinion, precluding a port from receiving food aid
                  shipments is tantamount to debarment. Without due process rights in
                  place, the port could successfully challenge KCCO’s actions in court.

USDA/OIG-A/03099-198-KC                                                                Page 6
                                     FSA informed us it did not consult with OGC when it developed its
                                     informal examination process. Officials incorrectly assumed that the
                                     since Federal procurement regulations allowed it to determine whether a
                                     port could perform and, therefore, be used, this provided adequate
                                     authority to approve or rescind approval. However, according to OGC,
                                     this regulation does not provide authority to either approve a facility or
                                     rescind its eligibility to store shipments of food aid. The regulation only
                                     states that when evaluating ports’ bids to receive agricultural
                                     commodities, FSA will consider the adequacy of building structures,
                                     proper ventilation, freedom from insects and rodents, cleanliness, and
                                     overall good housekeeping and warehousing practices. 12

                                     KCCO officials expressed concern that if they applied stricter standards
                                     to ports, they would refuse to handle USDA food. KCCO officials noted
                                     they are looking only for short-term storage for the food, and they do not
                                     have a contractual relationship with the ports. Currently, FSA relies on
                                     ports’ cooperation to correct problems that led to examination failures.
                                     This is the case even when vessel loading observation (VLO) reports
                                     show significant problems, such as rat infestation. According to an FSA
                                     official, they believe ports are generally cooperating with the agency.
                                     However, simply relying on ports’ cooperation provides FSA with
                                     limited assurance that food aid commodities are stored in clean and
                                     secure facilities.

                                     However, we note that FSA does not take a similarly informal approach
                                     to the storage of bulk and processed commodities in domestic
                                     warehouses. It does enter into contracts or agreements with domestic
                                     warehouses. In addition, standards of operation are detailed in the C.F.R.
                                     These include licensing requirements, financial requirements, condition
                                     of the facilities, qualifications of warehouse officials and personnel,
                                     operational capacities of the facilities, appeal rights for domestic
                                     warehouses rejected for approval, etc. 13

                                     Unlike ports and transloading facilities, domestic warehouses that fail
                                     examinations face substantial consequences and, therefore, have
                                     incentives to comply with elements of the examination checklist. The
                                     C.F.R., in part, provides that FSA/CCC has the authority to suspend,
                                     revoke, or terminate a warehouse’s storage agreement if the warehouse
                                     operator violates the terms of the agreement. 14

                                     We noted that without similar authority to rescind its approval of a
                                     facility, KCCO continued sending cargo to two ports, even though the

12
   7 C.F.R. § 1496.5 (d) (4), January 1, 2005, provides, in part, that the adequacy of the port to receive, accumulate, handle, store, and protect the
cargo will be considered prior to final selection. Factors to be considered include cleanliness, freedom from insects and rodents, etc.
13
   7 C.F.R. § 1421.5551-5559, January 1, 2005.
14
   7 C.F.R. § 1421.5551-5559, January 1, 2005, and Form CCC-25, “Uniform Grain and Rice Storage Agreement.”

USDA/OIG-A/03099-198-KC                                                                                                                    Page 7
                   port warehouse examiners failed one facility five times over 5 months
                   for a rat infestation and the other facility seven times over 4 months for
                   an insect and rodent infestation.

                   Until FSA can develop a formalized examination process, specifically
                   one that includes consequences for failing examinations and allows for
                   the disapproval of facilities that fail examination elements, it risks
                   shipping contaminated food to foreign countries. Doing so could
                   significantly damage the United States’ reputation in the global
                   community.

                   To ensure that commodities for foreign food aid programs are stored in
                   adequate, sanitary, and secure facilities, FSA should complete the
                   regulatory due process requirements to enable it to remove facilities
                   which have failed multiple examinations from its approved list and
                   discontinue food shipments to them. In subsequent discussions of the
                   audit, OGC and FSA disclosed that they are working jointly to address
                   the conditions noted in the audit, and that proposed solutions may not
                   specifically meet the audit recommendations. Therefore, FSA needs to
                   consult with OGC in developing corrective actions and responding to the
                   recommendations. OIG may accept alternative actions put forth by FSA
                   (in consultation with OGC), so long as such alternative actions would
                   correct the causes of the conditions noted in the audit.

Recommendation 1

                   Develop and publish written standards of approval, which describe the
                   requirements applicants wishing to store and handle USDA donated
                   commodities for foreign food aid programs must meet and the regulatory
                   due process for allowing KCCO to disapprove the applicants and
                   prohibit food shipments to them when they repeatedly fail to maintain
                   adequate, secure, and sanitary facilities for USDA donated commodities.

                   FSA Response.

                   FSA agreed with the recommendation. FSA plans to create a license
                   under the authority of the United States Warehouse Act (USWA) for
                   ports and transloading facilities handling government food assistance
                   commodities. This action will allow FSA to use policies and procedures
                   that are currently in place for its licensing programs including current
                   regulations, written standards for approval and due process for
                   approving and disapproving these facilities. Also a requirement will be
                   added during the procurement process that only USWA licensed
                   facilities may be used. The licensing agreement will be completed and
                   available for execution by January 9, 2009.

USDA/OIG-A/03099-198-KC                                                               Page 8
                   OIG Position.

                   We accept FSA’s management decision.

Recommendation 2

                   Develop formal internal operating procedures for approving and
                   disapproving ports and transloading facilities. Such procedures should
                   prescribe that if warehouse examiners note continued problems with
                   those that applied to handle and store USDA-donated commodities for
                   foreign food aid programs, these facilities should be disapproved and
                   rendered ineligible for handling food shipments.

                   FSA Response.

                   FSA agreed with the recommendation. FSA has in place procedures to
                   approve and disapprove facilities under the USWA. Current procedures
                   are in place to track and follow-up on adverse reports and to suspend and
                   revoke licenses as appropriate. Upon completion and issuance of a port
                   warehouse license (estimated to be January 9, 2009), FSA will use its
                   current procedures to administer the licensing actions.

                   OIG Position.

                   We accept FSA’s management decision.


Finding 2          FSA Examiners Did Not Consistently Evaluate Port Facility
                   Conditions

                   We found that FSA’s warehouse examiners did not consistently evaluate
                   9 of 43 approved port facilities’ compliance with individual examination
                   elements. In particular, they were not consistent in their evaluations
                   when they found that facilities lacked pest control programs and when
                   they found that birds and hazardous materials were in close proximity to
                   stored commodities. The examination results varied, because the
                   examination procedures (checklists) did not provide necessary criteria to
                   determine if an individual element was not being met, or if the facility
                   should be considered as failing the examination. As a result,
                   USDA-provided food is at risk of being contaminated or damaged
                   before being shipped to its destination.

                   FSA’s examinations consist of a review of requirements applicable to
                   operating a port storage facility or transloading facility in the form of a
                   checklist. For port storage facilities, the checklist is categorized into four

USDA/OIG-A/03099-198-KC                                                                  Page 9
                                sections: Terminal Infrastructure, Commodity Storage Conditions, Pest
                                Control, and Security. Each section is further categorized into elements,
                                such as the protection of commodities from bird droppings, dust, filth,
                                and stains; the presence of hazardous materials or contaminants; and the
                                presence of pests or insects. For transloading operations, the checklist is
                                similar but with only one section. Elements are graded by examiners on
                                a pass/fail basis. 15 However, the examination procedures do not
                                specifically and consistently identify birds as pests and do not state
                                whether the presence of birds or hazardous materials, or the absence of a
                                pest control program should cause a facility to fail the examination.

                                     Warehouse Examiners Did Not Consistently Evaluate Port
                                     Facilities’ Pest Control Programs

                                     We reviewed KCCO documentation of 43 port facilities and found
                                     that examiners cited 5 of the port facilities for lacking pest control
                                     programs. Of these five, warehouse examiners failed two and passed
                                     three. Although the two ports failed their examinations in total due to
                                     the lack of a pest control program, a different warehouse examiner
                                     passed another port which did not have a pest control program. In the
                                     case of the warehouse that passed, the warehouseman told the
                                     examiner that the facility had no pest control system in place and
                                     would call an exterminator when there was a need for one. However,
                                     port examination procedures do not provide any specific criteria for
                                     pest control programs or establish parameters for examiners for
                                     making such judgments.

                                     The checklist procedures ask examiners to determine if port facilities
                                     maintain records of pest and insect control actions and inspections, if
                                     the warehouse is inspected for rodent activity and infestation on a
                                     routine and frequent basis, and if the inspections are performed by
                                     qualified individuals or companies. If port facilities fail to comply
                                     with any of these elements, the decision whether the facility fails the
                                     examination is left up to the warehouse examiner’s judgment,
                                     because the examination procedures do not specify how many
                                     missing or failed elements equate to a failed examination
                                     determination.

                                     We concluded that FSA needs to take steps to ensure that warehouse
                                     examiners’ judgments, regarding pest control programs, are
                                     consistent and provide warehouse examiners with specific and
                                     uniform parameters for passing or failing a warehouse’s compliance
                                     with individual checklist elements.
15
   EOD-143, “Notice to the Trade, Revised U.S. Port Inspection Procedures,” July 1, 2004. FSA WLED 05-001, “Pilot Port Inspection
Procedures,” October 5, 2004, provides instructions for conducting examination checklists.


USDA/OIG-A/03099-198-KC                                                                                               Page 10
                     Warehouse Examiners Did Not Consistently Evaluate the Presence
                     of Birds at Port Facilities

                     Of the 43 ports inspected, 1 port was passed when bird traces were
                     found, while another one failed. Of the 21 total examinations
                     conducted at these two ports, the warehouse examiners failed 16 but
                     passed 5. This occurred because the examination procedures are
                     ambiguous regarding whether port facilities should fail if birds or
                     traces of birds are observed. Due to this ambiguity, warehouse
                     examiners inconsistently apply this determination because they are
                     left to interpret whether the presence of birds provides adequate
                     grounds for failing a facility.

                     The examination procedures ask examiners to determine if
                     commodities are clean and protected from bird droppings, dust, filth,
                     and stains; if warehouses are free of pests or insects; and if doors,
                     windows, and entry points are maintained to discourage bird entry.
                     However, the procedures do not specifically identify birds as pests.

                     Warehouse examiners passed the same port four times after noting
                     that birds and bird nests were present in the warehouse and food was
                     uncovered. During one of the four examinations, OIG auditors were
                     present when the examiner noted bags of uncovered food soiled by
                     bird droppings. The examiner sent notification of the bird problem in
                     an electronic text message to the warehouse manager. In response,
                     the warehouse manager took immediate action during the
                     examination to clean and cover the bags. As a result of the actions
                     taken by the warehouse, the warehouse examiner determined the
                     actions rectified the adverse condition observed, and he judged the
                     port as passing the examination. In another case, warehouse
                     examiners failed another port on 16 consecutive subsequent
                     examinations for having birds inside the facility. On one of these
                     examinations, we were present when the examiner told port officials
                     that he was reporting the port as failing the examination for two
                     reasons, one of which was the presence of birds in the warehouse
                     and bird droppings on USDA food cargo in storage.

                     We concluded that the examination procedures need to be revised to
                     explicitly define birds as pests, and specify whether food is to be
                     covered with tarps to protect against bird droppings.

                     Warehouse Examiners Did Not Consistently Evaluate the Presence
                     of Hazardous Materials

                     Of the 43 port and transloading facilities examined, 1 port was
                     passed when hazardous materials were in close proximity to food
USDA/OIG-A/03099-198-KC                                                           Page 11
                                     while another one failed. Although port facilities are required to
                                     ensure that hazardous materials or contaminants are not stored near
                                     food, the examination procedures fail to define specific materials
                                     which should be classified as “hazardous.” The procedures also do
                                     not explicitly state how far hazardous materials must be kept from
                                     food. As a result, these port facilities are not sufficiently regulated to
                                     ensure that hazardous materials are segregated and do not
                                     contaminate food.

                                     For example, one warehouse examiner passed a warehouse even
                                     though he reported “Poison corn noted by dry milk.” 16 In contrast, a
                                     different examiner failed another warehouse because it stored instant
                                     lighting charcoal briquettes soaked in butane.

                                     We concluded that the examination procedures should be revised so
                                     that specific hazardous materials are defined, and the segregation of
                                     these materials from the food is explicitly stated.

                                In addition, during our visit to one port, we noticed the examiner was
                                using obsolete procedures 17 to complete the checklists. He did not have a
                                copy of the current checklist procedures. 18 When asked why he was
                                using the obsolete procedures, the examiner stated that since the facility
                                had been approved at the time those procedures were effective, he
                                continued to use those guidelines for conducting current examinations.

                                KCCO officials indicated that they did not provide specific thresholds
                                for failure of checklist elements, such as bird droppings on the bags of
                                food, because the purpose of their port examinations was only to get an
                                overview of food storage conditions. They did not initiate the
                                examinations as a method for judging a particular facility’s fitness to
                                store and handle commodities. However, such broad guidelines have led
                                to inconsistent performance of examinations at port facilities.
                                Imprecision could have detrimental consequences if food contaminated
                                from its stay in a facility that was passed on examination is provided to
                                recipients.

                                Although many of the ports cited handle a small percentage of the food
                                aid shipped to foreign countries, one port handled over 600,000 metric
                                tons of the approximately 2.4 million metric tons of food handled by
                                approved port facilities in FY 2007. The inconsistencies we identified
                                indicate that the agency’s current examination process does not provide
                                adequate assurance that all food is properly safeguarded against potential
16
   Poisoned corn is a form of pest control.
17
   EOD-51, “Notice to the Trade – Port Approval and Inspections,” August 12, 1999. FSA WLED 99-005, “Port Examination Procedures,”
September 15, 1999.
18
   EOD-143, “Notice to the Trade – Revised U.S. Port Inspection Procedures,” July 1, 2004. FSA WLED 05-001, “Pilot Port Inspection
Procedures,” October 5, 2004.

USDA/OIG-A/03099-198-KC                                                                                                Page 12
                   contamination. Given the potential consequences of providing
                   contaminated food to foreign recipients, FSA needs to develop more
                   rigorous guidance for its port examination process.

Recommendation 3

                   Develop and implement revised specific examination procedures for
                   examining port facilities that provides comprehensive guidance for
                   inspectors as well as precise definitions and terminology for each
                   element evaluated. (Such procedures or checklist should address, for
                   example, the covering of food and the segregation of hazards from
                   food.) The examination procedures should also include specific
                   parameters and criteria for determining pass/failure by examiners for
                   individual elements as well as the facilities as a whole. Distribute the
                   revised examination requirements to all port examiners.

                   FSA Response.

                   FSA agreed with the recommendation and will revise the specific
                   examination procedures to address the items contained in this finding.
                   The procedures will be documented on the applicable examination forms
                   and within applicable procedures contained in warehouse examiner
                   handbooks. Revision of the procedures will be accomplished by
                   January 9, 2009.

                   OIG Position.

                   We accept FSA’s management decision.



Finding 3          Corrective Action on Examination Failures Not Ensured

                   Warehouse examiners performed reviews at 43 port facilities which
                   resulted in the completion of 179 examination checklists. Of these, FSA
                   warehouse examiners determined 51 failures between July 1, 2004, and
                   March 16, 2006. For 11 of these 51 failures, FSA issued the
                   Forms WA-125 and took followup actions consisting of letters or
                   electronic mail acknowledging receipt of the facilities’ responses to the
                   form. However, for 20 of the 51 failures, FSA did not issue the required
                   Forms WA-125 to inform facilities of the observed deficiencies. For
                   20 additional failures, FSA did issue the Forms WA-125, but did not
                   follow up to determine if facilities had taken adequate corrective action.
                   In some cases, FSA gave no reason for not issuing the form. In other
                   cases, this occurred because examiners had noted the same examination
                   failures on previously issued Forms WA-125, and because EOD had

USDA/OIG-A/03099-198-KC                                                             Page 13
                                  determined that examiners did not need to issue the form to facilities not
                                  storing food at the time of the examination failure. Also, FSA lacked
                                  specific internal written procedures for following up to obtain responses
                                  on issued Forms WA-125, and procedures did not specify that FSA
                                  maintain written records of its followup activities at the time of our
                                  fieldwork. As a result, FSA cannot be sure that all facilities have
                                  implemented adequate corrective actions to resolve repeated
                                  examination failures.

                                  FSA’s examination procedures state that Form WA-125 must be issued
                                  to facilities that fail examinations. 19 The facility then must submit a
                                  written plan of future corrective actions to KCCO within 15 days to
                                  explain its plans to address the specific causes of examination failure.

                                  In addition, FSA issued 20 Forms WA-125 but did not follow up to
                                  verify that observed deficiencies were corrected as reported or that FSA
                                  had deemed reported actions sufficient. Specifically, in 18 of 20 cases,
                                  the facilities responded to the Forms WA-125, but FSA had no evidence
                                  that it accepted their response or verified that the reported corrective
                                  action was in fact taken. For example, in 1 of the 18 cases, a warehouse
                                  examiner noted that a warehouse was infested with live rats. The
                                  examiner also observed mud and cargo spillage. The port’s response to
                                  the Form WA-125 stated that the cleaning crew had increased its efforts
                                  to keep the facility clean and that the stevedore would sweep between
                                  stacks of cargo to remove spillage. However, KCCO files had no
                                  documentation that KCCO accepted this reported plan or confirmed
                                  whether the facility had completed it. Another examination of the
                                  facility less than a month later showed another Form WA-125 issued for
                                  the same rat infestation problems, and mentioned that while the facility
                                  had taken some corrective action, it had not taken all the actions
                                  requested in the Form WA-125 issued during the previous examination.

                                  In 2 other cases, Forms WA-125 were issued, but the facilities did not
                                  respond to the EOD, and FSA had no documentation evidencing that
                                  EOD followed up to obtain responses. 20 FSA did not always follow up
                                  on outstanding Forms WA-125 where responses had not been received,
                                  because it lacked specific written internal procedures for doing so,
                                  including procedures for documenting acceptance of port facilities’
                                  responses, and delineating responsibilities of EOD and WLED to follow
                                  up to obtain the response and verify the corrective action was taken.
                                  EOD staff stated that WLED and EOD personnel were unclear on who
                                  was responsible for making the initial follow-up phone call to the port

19
   EOD-143, “Notice to the Trade, Revised U.S. Port Inspection Procedures,” July 1, 2004. FSA WLED 05-001, “Pilot Port Inspection
Procedures,” October 5, 2004.
20
   In two other cases, Forms WA-125 were issued even though facilities had passed their examinations. In another case, a Form WA-125 was
issued although no examination checklist was completed.

USDA/OIG-A/03099-198-KC                                                                                                     Page 14
                   facilities. Each division thought that the other one was responsible for
                   contacting the facilities.

                   KCCO did not develop written procedures delineating EOD and
                   WLED’s actions after an examiner issued a Form WA-125 to a facility,
                   until we asked how it followed up on examination elements. During our
                   audit fieldwork, KCCO issued written internal procedures on
                   March 16, 2006, for following up on issued Forms WA-125 where
                   responses had not been provided to clarify the division of
                   responsibilities within KCCO.

                   According to the new procedures, if a facility responds to Form WA-125
                   within the required timeframe, WLED will share the response with
                   EOD. EOD is to review the response and to respond as follows: (1) if
                   EOD determines that the response contains sufficient evidence that
                   adequate corrective action has been taken, the Form WA-125 is to be
                   closed; or (2) if EOD determines that the response is incomplete or
                   inadequate, it is to request more information from the facility, or request
                   a follow-up examination by a warehouse examiner to verify that
                   corrective action is taken and/or is adequate. If a facility does not
                   respond to an issued Form WA-125 within 15 days, WLED is to advise
                   EOD, and it is to contact that facility to obtain a response. If an
                   acceptable response is still not received by EOD after their contact(s)
                   with the facility/port, EOD management is to be notified and take such
                   action as necessary.

                   After the new procedures were implemented, EOD personnel advised us
                   that they still generally do not document all phone conversations in
                   writing, especially when they consider a facility’s failure on an
                   examination to be a small problem. We concluded these revised internal
                   procedures issued by FSA in response to our audit are insufficient
                   because a written record of followup actions is still not required to show
                   timely followup actions were taken and that observed deficient
                   conditions at facilities were promptly corrected.

                   However, FSA still needs assurance that facility conditions have, in fact,
                   been corrected, because the corrective action taken for those cited
                   facilities cannot be verified through record review. Also, the revised
                   procedures still do not require a written record of followup actions in
                   order to ensure that unfit conditions at facilities are promptly corrected.

Recommendation 4

                   Strengthen existing written procedures to require written records of
                   followup actions taken by KCCO be prepared and maintained to ensure
                   that undesirable conditions observed at facilities are promptly corrected.
USDA/OIG-A/03099-198-KC                                                              Page 15
                  FSA Response.

                  FSA agreed with the recommendation. Issuance of the USWA license to
                  port facilities will place all licensing actions under the procedures in
                  place for this program. Current procedures require that all actions be
                  documented in writing. Efforts are underway to record the information
                  electronically. The procedures will become effective upon license
                  availability expected by January 9, 2009.

                  OIG Position.

                  We accept FSA’s management decision.




USDA/OIG-A/03099-198-KC                                                           Page 16
Scope and Methodology
                                  Our review covered 179 port examinations performed between
                                  July 1, 2004, when EOD-143,”Revised U.S. Port Inspection
                                  Procedures,” became effective, and March 16, 2006. We performed our
                                  review at the FSA National office in Washington, D.C.; KCCO in
                                  Kansas City, Missouri; and at 3 of 43 port/transloading facilities
                                  approved for handling USDA-purchased food aid commodities at that
                                  time. Based upon input from KCCO personnel and the volume of
                                  USDA-purchased commodities shipped from these facilities, we chose
                                  to visit the Port of Houston, and Jacintoport in Houston, Texas, as well
                                  as the Port of Lake Charles in Lake Charles, Louisiana. 21 Fieldwork was
                                  performed from October 2005 through April 2008.

                                    To accomplish our objectives, we reviewed CCC, FSA, KCCO, EOD,
                                    and WLED regulations, notices, procedures, and instructions relating to
                                    the port examination process. To complete our review, we:

                                     •    Interviewed responsible FSA, KCCO, EOD, and WLED program
                                          officials to understand how they operate the port examination
                                          process;

                                     •    Reviewed available policies and procedures related to the port
                                          examination process to determine whether procedures were
                                          adequate to ensure protection for USDA-purchased food aid
                                          commodities stored at port facilities;

                                     •    Interviewed officials from the Grain Inspection, Packers, and
                                          Stockyards Administration, the Foreign Agricultural Service, the
                                          Food and Drug Administration, the U.S. Agency for International
                                          Development, and the U.S. Coast Guard to determine their level of
                                          involvement with the port examination process;

                                     •    Reviewed 179 examination reports to determine port performance,
                                          warehouse examiners’ consistency, and agency followup on
                                          problems noted;

                                     •    Reviewed approval files at KCCO to assess the approval process;




21
  Of food commodities scheduled to arrive at ports in February 2006, the Port of Houston was to receive over 10 percent, Jacintoport was to
receive over 40 percent, and the Port of Lake Charles was to receive over 2 percent. The Port of Lake Charles also held pre-positioned
commodities.

USDA/OIG-A/03099-198-KC                                                                                                        Page 17
                   •   Reviewed correspondence between port/transloading facilities and
                       EOD to evaluate follow-up procedures for completed
                       examinations;

                   •   Observed warehouse examiners performing port examinations at
                       two locations (three approved port/transloading facilities);

                   •   Observed VLOs performed at three approved port/transloading
                       facilities;

                   •   Reviewed VLO reports and compared them to port examination
                       reports to ascertain differences; and

                   •   Interviewed security personnel at field sites to determine what
                       measures were taken to protect USDA-purchased food aid
                       commodities stored at the facility.

                   We conducted this performance audit in accordance with generally
                   accepted government auditing standards. Those standards require that
                   we plan and perform the audit to obtain sufficient, appropriate evidence
                   to provide a reasonable basis for our findings and conclusions based on
                   our audit objective. We believe that the evidence obtained provides a
                   reasonable basis for our findings and conclusions based on our audit
                   objective.




USDA/OIG-A/03099-198-KC                                                            Page 18
Exhibit A – FSA Response
                           Exhibit A – Page 1 of 2




USDA/OIG-A/03099-198-KC                 Page 19
Exhibit A – FSA Response
                           Exhibit A – Page 2 of 2




USDA/OIG-A/03099-198-KC                 Page 20
Glossary of Terms

Port facility             -   A place on a waterway that provides a harbor for
                              ships taking on or discharging cargo.

Stevedore                 -   A worker who loads or unloads ships.

Transloading facility     -   A facility that provides temporary storage for
                              commodities as they are moved from railways to
                              more permanent port facilities.




USDA/OIG-A/03099-198-KC                                               Page 21
Informational copies of this report have been distributed to:

Administrator, Farm Service Agency
 Attn: FSA Liaison Officer                                (3)
Government Accountability Office                          (1)
Office of Management and Budget                           (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division           (1)
